                                                                                Acronyms and abbreviations I Appendix B I july 21, 2010            1




Acronyms and Abbreviations

2MP                Second Lien Modification Program                    DGP                Debt Guarantee Program
ABCP               asset-backed commercial paper                       DIF                Deposit Insurance Fund
ABS                asset-backed securities                             DIL                deed-in-lieu of foreclosure
AGP                Asset Guarantee Program                             DIP                debtor-in-possession
AHR                American Home Recovery                              DOJ                Department of Justice
AIA                AIA Group, Limited                                  DTI                debt-to-income ratio
AIFP               Automotive Industry Financing Program               ECASLA             Ensuring Continued Access to Student Loans Act
                                                                                          of 2008
AIG                American International Group, Inc.
                                                                       EESA               Emergency Economic Stabilization Act of 2008
ALICO              American Life Insurance Company
Ally Financial     Ally Financial Inc. (formerly GMAC Inc.)            Fannie Mae         Federal National Mortgage Association

AMLF               Asset-Backed Commercial Paper Money Market Mutual   FBI                Federal Bureau of Investigation
                   Fund Liquidity Facility                             FDIC               Federal Deposit Insurance Corporation
APR                annual percentage rate                              FDIC OIG           Office of the Inspector General of the Federal Deposit
ARM                adjustable-rate mortgage                                               Insurance Corporation

ARRA               American Recovery and Reinvestment Act of 2009      Federal Reserve    Federal Reserve System

ASSP               Auto Supplier Support Program                       FFEL               Federal Family Education Loan

AWCP               Auto Warranty Commitment Program                    FFETF              Financial Fraud Enforcement Task Force

Bank of America Bank of America Corporation                            FFR                federal funds rate

BlackRock          BlackRock Financial Management, Inc.                FHA                Federal Housing Administration

CAP                Capital Assistance Program                          FHFA               Federal Housing Finance Agency

CBO                Congressional Budget Office                         FHLB               Federal Home Loan Bank

CDBG               Community Development Block Grant                   FOMC               Federal Open Market Committee

CDCI               Community Development Capital Initiative            FRBNY              Federal Reserve Bank of New York

CDFI               Community Development Financial Institution         Freddie Mac        Federal Home Loan Mortgage Corporation

CEO                chief executive officer                             FTC                Federal Trade Commission

CGI Holding        CGI Holding LLC                                     GAO                Government Accountability Office

Chrysler Financial Chrysler Financial Services Americas LLC            GM                 General Motors Corporation

Citigroup          Citigroup, Inc.                                     GMAC               GMAC Inc.

CMBS               commercial mortgage-backed securities               GNMA               Government National Mortgage Association

Colonial           Colonial Bancgroup                                  GSE                Government-sponsored enterprise

COP                Congressional Oversight Panel                       HAFA               Home Affordable Foreclosure Alternatives

CP                 commercial paper                                    HAMP               Home Affordable Modification Program

CPFF               Commercial Paper Funding Facility                   HARP               Homeowners’ Affordability Relief Program

CPP                Capital Purchase Program                            HERA               Housing and Economic Recovery Act

CUSIP              Credit Union System Investment Program              HFA                Housing Finance Agency

DDA                Demand Deposit Account                              HHF                Hardest Hit Fund
2             Appendix B I Acronyms and abbreviations I july 21, 2010




    HPDP                Home Price Decline Protection                           OMB               Office of Management and Budget
    HUD                 Department of Housing and Urban Development             Omni              Omni National Bank
    HUD OIG             Office of the Inspector General of the Department       OMO               open market operations
                        of Housing and Urban Development
                                                                                Pacific           Pacific Capital Bancorp of Santa Barbara California
    IG                  Inspector General
                                                                                PDCF              Primary Dealer Credit Facility
    ILFC                International Lease Finance Corporation
                                                                                PPIF              Public-Private Investment Fund
    IMF                 International Monetary Fund
                                                                                PPIP              Public-Private Investment Program
    Initial Report      SIGTARP’s Initial Report to Congress
                                                                                PRA               Principal Reduction Alternative
    IOLTA               Interest on Lawyers Trust Accounts
                                                                                Prudential        Prudential PLC, Inc.
    IPO                 initial public offering
                                                                                PSPA              preferred stock purchase agreement
    IRA                 Individual Retirement Account
                                                                                QFI               qualifying financial institution
    IRS                 Internal Revenue Service
                                                                                REPOS             repurchase agreements
    IRS-CI              Internal Revenue Service Criminal Investigations
                        Division                                                RMBS              residential mortgage-backed securities

    LIBOR               London Interbank Offered Rate                           S&P               Standard & Poor’s

    LLC                 limited liability company                               SBA               Small Business Administration

    LTV                 loan-to-value ratio                                     SBIC              Small Business Investment Company

    MBS                 mortgage-backed securities                              SBLF              Small Business Lending Fund

    MCP                 mandatorily convertible preferred shares                SEC               Securities and Exchange Commission

    Merrill Lynch       Merrill Lynch & Co. Inc.                                SEO               senior executive officer

    MHA                 Making Home Affordable Program                          SIGTARP           Special Inspector General for the Troubled Asset Relief
                                                                                                  Program
    Midwest             Midwest Banc Holdings, Inc.
                                                                                SOMA              System Open Market Account
    MMIFF               Money Market Investor Funding Facility
                                                                                South Financial   South Financial Group Inc.
    MMMF                Money Market Mutual Fund program
                                                                                Special Master    Office of the Special Master for the Troubled Asset
    MVMC                Mt. Vernon Money Center                                                   Relief Program
    Nan Shan            Nan Shan Insurance Ltd.                                 SPV               special purpose vehicle
    NCUA                National Credit Union Administration                    SS/DIL            Short Sales/Deed-In-Lieu of Foreclosure program
    NCUSIF              National Credit Union Share Insurance Fund              SSFI              Systemically Significant Failing Institutions program
    New Chrysler        Chrysler Group LLC                                      Sterling          Sterling Financial Corporation
    NIBP                New Issuance Bond Program                               STPP              Short Term Purchase Program
    Non-Agency RMBS non-agency residential mortgage-backed securities           TAF               Term Auction Facility
    NPV                 net present value                                       TAG               Transaction Account Guarantee
    NRSRO               nationally recognized statistical rating organization   TALF              Term Asset-Backed Securities Loan Facility
    Ocala Funding       Ocala Funding, LLC                                      TARP              Troubled Asset Relief Program
    OCC                 Office of the Comptroller of the Currency               TCCULGP           Temporary Corporate Credit Union Liquidity Guarantee
                                                                                                  Program
    OFS                 Office of Financial Stability
                                                                                TCCUSF            Temporary Corporate Credit Union Stabilization Fund
    Old Chrysler        Chrysler LLC
                                                                   Acronyms and abbreviations I Appendix B I july 21, 2010   3




TCCUSGP         Temporary Corporate Credit Union Share Guarantee
                Program
TCLP            Temporary Credit and Liquidity Program
TD              Toronto-Dominion Bank
THL             Thomas H. Lee Partners L.P.
TIP             Targeted Investment Program
TLGP            Temporary Liquidity Guarantee Program
TOP             Term Securities Lending Facility Options Program
TPP             Treasuries Purchase Program
Treasury        U.S. Department of the Treasury
TSLF            Term Securities Lending Facility
UAW             United Auto Workers
UCSB            Unlocking Credit for Small Businesses
UGC             United Guaranty Corporation
UP              Home Affordable Unemployment Program
UPB             unpaid principal balance
USPIS           U.S. Postal Inspection Service
VA              U.S. Department of Veterans Affairs
Warbug Pincus   Warbug Pincus Investments
